         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       EPA Needs Definitive Guidance
       for Recovery Act and
       Future Green Reserve Projects
       Report No. 10-R-0057

       February 1, 2010
Report Contributors:                                  John Coll
                                                      Dan Engelberg
                                                      Linda Fuller
                                                      Julie Hamann
                                                      Melba Reed




Abbreviations

ARRA         American Recovery and Reinvestment Act
EPA          U.S. Environmental Protection Agency
OIG          Office of Inspector General
SRF          State Revolving Fund




Cover photos:	     From left: Vegetated curb extensions used in Portland, Oregon, to
                   decrease stormwater runoff (EPA photo); the American Recovery and
                   Reinvestment Act logo; cisterns at Chesapeake Bay Foundation
                   Headquarters (photo courtesy Chesapeake Bay Foundation).
                       U.S. Environmental Protection Agency 	                                                     10-R-0057
                                                                                                            February 1, 2010
                       Office of Inspector General


                       At a Glance
                                                                                 Catalyst for Improving the Environment

Why We Did This Review              EPA Needs Definitive Guidance for Recovery
As part of our efforts to review    Act and Future Green Reserve Projects
the U.S. Environmental
Protection Agency’s (EPA’s)             What We Found
management of American
Recovery and Reinvestment           EPA has not provided clear and comprehensive guidance to States for how to
Act (ARRA) funding, we              determine the eligibility of green reserve projects. EPA was promoting a green
evaluated whether EPA has
                                    approach to wastewater and drinking water programs for at least a year prior to
developed and implemented
adequate controls to ensure that    the ARRA’s enactment. Despite that experience, EPA did not develop and issue
States actively solicited for       clear and comprehensive guidance in time to meet many of the States’ needs.
green reserve projects before       For example, EPA did not provide guidance on how to solicit and select green
reprogramming such funds to         projects until after many States had finished doing so, and some States felt the
traditional projects.               need to resolicit for green projects while others did not.

Background                          EPA’s guidance and subsequent updates have not addressed important aspects of
                                    project selection. At the time of this review, EPA had not established water and
The Clean Water and Drinking        energy efficiency threshold ranges for many types of green projects. Also, the
Water State Revolving Funds         Agency still had not provided sufficient information to States on how to develop
provide low-interest loans for      business case justifications for non-categorical projects. Moreover, changes over
protecting water quality and        time in EPA’s guidance for how to determine project eligibility resulted in EPA
public health. The ARRA             regions applying different standards for approving States’ green project proposals.
provided $6 billion in
capitalization grants to the        EPA cannot provide a reasonable assurance that its green reserve projects will
States for these funds. ARRA        meet Congress’ objectives without issuing guidance that sets definitive
required at least 20 percent of     expectations. Additionally, future green funding may face similar issues.
this funding to support green
projects: water or energy               What We Recommend
efficiency, green infrastructure,
or environmentally innovative
                                        In its formal response to the draft report, the Agency did not agree or disagree
activities.
                                        with the recommendations. Subsequently, OIG was told the Agency
                                        nonconcurred with the draft report’s recommendations and alternative
For further information,                recommendations were informally proposed which were acceptable to OIG.
contact our Office of                   We amended the recommendations in this report to incorporate the informal
Congressional, Public Affairs           proposal; however the recommendations are undecided pending formal Agency
and Management at
(202) 566-2391.
                                        approval or rejection. The revised recommendations are for EPA to develop and
                                        revise guidance, information, and, as appropriate, specific criteria that States can
To view the full report,                employ to assist them in identifying green reserve projects. We also recommend
click on the following link:            that EPA conduct timely reviews of States’ submitted green projects and, where
www.epa.gov/oig/reports/2010/           necessary, business cases.
20100201-10-R-0057.pdf
                                    .
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                          OFFICE OF
                                                                                     INSPECTOR GENERAL



                                          February 1, 2010

MEMORANDUM

SUBJECT:	              EPA Needs Definitive Guidance for Recovery Act and
                       Future Green Reserve Projects
                       Report No. 10-R-0057


FROM:                  Wade T. Najjum
                       Assistant Inspector General, Office of Program Evaluation

TO:	                   Peter S. Silva
                       Assistant Administrator, Office of Water


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time and adding travel costs – is $329,423.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for the undecided
recommendations while resolution efforts continue. The corrective actions plan should include
agreed-upon actions, including milestone dates. We have no objections to the further release of
this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at 202-566-0827 or
najjum.wade@epa.gov; Dan Engelberg, Director, at 202-566-0830 or engelberg.dan@epa.gov; or
Julie Hamann, Project Manager, at 913-551-7693 or hamann.julie@epa.gov.
EPA Needs Definitive Guidance for                                                                                              10-R-0057
Recovery Act and Future Green Reserve Projects




                                      Table of Contents 

   Purpose........................................................................................................................    1        


   Background .................................................................................................................       1        


   Scope and Methodology.............................................................................................                2         


   Results of Review .......................................................................................................         3         


           States Actively Soliciting Green Reserve Projects ...............................................                         3

           EPA Needs to Establish Effective Guidance on 

                Green Project Reserve Eligibility .................................................................                  4

           EPA Cannot Effectively Conduct Oversight without Definitive Criteria.................                                     5


   Recommendations ......................................................................................................            6         


   Agency Response and OIG Comments ....................................................................                             6         


   Status of Recommendations and Potential Monetary Benefits..............................                                           7         




Appendices
   A       Agency Response ..............................................................................................            8         


   B       Distribution .........................................................................................................    11    

                                                                                          10-R-0057 



Purpose
As part of our efforts to review the U.S. Environmental Protection Agency’s (EPA’s)
management of American Recovery and Reinvestment Act (ARRA) funding, we sought to
determine whether EPA has developed and implemented adequate controls to ensure that States
actively solicit green reserve projects before reprogramming such funds to traditional projects.

Background
The 2009 ARRA provides $4 billion for EPA’s Clean Water State Revolving Fund (SRF)
program and $2 billion for its Drinking Water SRF program. These SRF programs provide low-
interest loans and, in some cases, grants for infrastructure projects to protect water quality and
public health. Federal Government grants and State matching funds provide funds to establish or
capitalize the SRF programs. The States administer the SRF and distribute loans and grants
based on public health and environmental priorities.

EPA’s $6 billion of ARRA funding for water SRF programs is approximately four times as large
as the Fiscal Year 2008 SRF appropriation. Also, ARRA provides for the first time that States
reserve at least 20 percent of the funding for green projects designed to further environmental
objectives. This special allocation for green projects ($1.2 billion) is 80 percent of the Fiscal
Year 2008 appropriation from Congress for the SRFs. In addition to the ARRA, the President’s
proposed Fiscal Year 2010 budget contains language supporting green infrastructure programs.

EPA defines green infrastructure as applications and approaches that reduce, capture, and treat
stormwater runoff at its source before it reaches the sewer system. Under the ARRA, green
projects include those that promote green infrastructure and energy or water efficiency, as well as
projects that demonstrate new or innovative ways to manage water resources in a sustainable way.

States receiving ARRA funds must meet accelerated timeframes. If a State has not identified
sufficient green projects, the State can request a waiver to transfer funds to traditional SRF
projects. The earliest the States could seek such an application was August 17, 2009. ARRA
also requires that by February 17, 2010, all funds must be committed to eligible projects, with
States having signed certifications that project applicants have signed contracts or the projects
are under construction. If a State fails to meet the February 2010 deadline, EPA is required to
deobligate the funds.

States that have sufficient qualified green projects under previous SRF solicitations do not need
to solicit additional projects. States that do not have sufficient green projects under the ARRA
must continue to actively solicit and accept applications to be eligible to receive the 20-percent
reserve. In its May 2009 guidance, EPA defined adequate solicitation to include activities such
as placing prominent messages on State SRF and recovery Websites and sending solicitation
funding applications to municipalities.

EPA has developed project descriptions and examples to assist States in selecting projects that
qualify for the ARRA’s green project reserve. The Agency defines project types that clearly
meet the ARRA’s intent as “categorical.” Other projects may have benefits that meet ARRA’s


                                               1

                                                                                        10-R-0057


green intent but may not be readily classified as such. These projects require a “business case”
or documentation of how the project or portion of the project achieves identifiable and
substantial benefits that qualify as green project benefits. EPA has provided contractor
assistance and issued four guidance documents to assist States in implementing the green reserve
program.

Scope and Methodology

We conducted this review between May and November 2009. We conducted this review in
accordance with generally accepted government audit standards, issued by the Comptroller
General of the United States. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. Because the
ARRA is new, the Office of Inspector General (OIG) has not conducted any prior reviews in this
area.

We interviewed officials in EPA’s Office of Water, specifically the Offices of Wastewater
Management and Groundwater and Drinking Water, which work with the SRF programs. We
also interviewed officials in the Office of Administration and Resources Management’s Office of
Grants and Debarment. We interviewed officials in EPA Regions 1, 2, 3, 5, and 6. We sent a
survey to EPA regions about how their States were implementing ARRA’s active solicitation
requirement.

We obtained information on State solicitation and identification of green reserve projects. We
selected States based on EPA’s identification of States that planned to solicit for ARRA SRF
projects. States selected for our review were Connecticut, Michigan, New Hampshire, New
York, Oklahoma, and West Virginia. We interviewed State officials to learn about their
solicitation and project selection activities. We reviewed Websites for solicitations and Intended
Use Plans for the selected States.

We reviewed the ARRA to gain an understanding of the legislative requirements. To determine
how EPA planned for States to solicit and identify eligible green reserve projects, we reviewed
the following EPA guidance:

   •	 Award of Capitalization Grants with Funds Appropriated by P.L. 111-5, the American
      Recovery and Reinvestment Act of 2009, March 2, 2009.
   •	 Adequate solicitation of Green Project Reserve applications under the American 

      Recovery and Reinvestment Act, May 13, 2009. 

   •	 Energy Efficiency Business Case for Wastewater Pumping Systems for ARRA Green
      Project Reserve, May 14, 2009.
   •	 The Green Project Reserve: Principles and approach to developing a Business Case for
      water and energy efficiency projects and Questions and & Answers on ARRA GPR,
      June 22, 2009.




                                              2

                                                                                          10-R-0057 



Results of Review
Although EPA was promoting a green approach to wastewater and drinking water programs for
at least a year prior to the ARRA, EPA was not able to develop and issue clear and
comprehensive guidance soon enough to meet State needs once the ARRA was enacted. EPA
did issue a guidance document generally defining the program on March 2, 2009, about 2 weeks
after the passage of ARRA on February 17, 2009. However, that guidance and subsequent
updates have not addressed important aspects of project selection. For example:

   •	 EPA did not provide guidance on how to solicit or select green projects until after many
      States had finished soliciting for projects. Some of those States felt obligated to re-solicit
      for green projects, while others re-examined their existing lists and developed green
      projects from those lists.
   •	 At the time of this review, EPA had not established water and energy efficiency threshold
      ranges for many types of green projects.
   •	 EPA still had not provided enough information to States about how to develop business
      case justifications for non-categorical projects.
   •	 Changes in how to determine project eligibility resulted in EPA regions applying
      different standards for approving States’ green project proposals, creating confusion for a
      number of States.

Without adequate guidance, EPA regions and States cannot adequately determine the extent to
which these projects reduce energy and water usage compared to projects traditionally funded
under the SRF program. EPA also cannot adequately determine whether these projects meet
Congress’ objectives. Further, this guidance is important if Congress appropriates additional
funds for green projects in coming years.

States Actively Soliciting Green Reserve Projects

States have actively conducted solicitation efforts for green reserve projects. In a survey of
EPA’s 10 regions, respondents from 38 of the 50 States (76 percent) told us that their States
solicited for clean water green reserve projects and 35 of the 50 States (70 percent) solicited for
drinking water green reserve projects. States conducted a variety of solicitation activities. For
example, some States placed prominent messages on State Websites, sent funding applications to
municipalities, and conducted targeted meetings with watershed organizations. A number of
States in our review solicited beyond the traditional group of applicants. For example, the
Oklahoma Clean Water SRF program advertised to environmental groups, including the Nature
Conservancy and the Sierra Club, as well as to municipalities and public water systems.

These efforts appear to have been successful, at least in terms of meeting the indistinct guidance
supplied by EPA. In September 2009, EPA expected all States to meet the 20-percent green
reserve provision for both the Clean Water and Drinking Water SRF programs. Some States
received a large surplus of applications. For example, the New York Clean Water SRF program
received nearly 300 applications, totaling more than $450 million, for the $86.5 million in its
green reserve. However, EPA drinking water SRF officials also reported that some States were
having difficulty meeting the green project reserve requirements.


                                               3

                                                                                        10-R-0057 



EPA Needs to Establish Effective Guidance on Green Project Reserve Eligibility

EPA has not provided the clear and unambiguous direction required to establish ground rules for
this new program. The guidance to the regions and States for determining green project reserve
eligibility has been incomplete or inconsistent. As early as January 2008, more than a year prior
to the ARRA, EPA was promoting the need for establishing a systematic approach to reducing
energy consumption and energy costs. However, because EPA considered the SRFs to be largely
State-led programs, EPA initially took a hands-off approach on how States should determine
project eligibility, providing States with only minimal guidance. Yet, it appears that some States
were uneasy with this approach due to concern that they could lose green reserve funding if EPA
did not approve submitted projects. This inconsistency has led to differing approaches by EPA
regions and confusion in some States. EPA needs to develop unambiguous guidance on green
reserve funding eligibility, especially if this program continues in future years.

In its initial March 2, 2009, ARRA guidance, EPA did not require States to solicit for green
projects. States could select green reserve projects from applicants already waiting for SRF
loans. Solicitation was necessary only when a State could not identify a sufficient number of
eligible projects in its SRF pipeline. However, EPA did recommend that States consider
soliciting for green projects to establish a buffer in case some projects dropped out of the
program.

EPA did not issue guidance in time to assist States soliciting for green reserve projects. On
May 13, 2009, about 3 months after ARRA was enacted and after most States had begun their
solicitation efforts, EPA expanded its solicitation guidance. This guidance provided States with
examples of appropriate types of solicitation actions, such as placing prominent messages on
State SRF and recovery Websites and sending solicitation funding applications to municipalities.
EPA’s intent was to use this guidance to determine the adequacy of the States’ solicitation
efforts. However, by the time EPA issued this guidance, most States had initiated their
solicitation processes without the benefit of the guidance. All six States in our review had
started their solicitation process and several of them had already completed those efforts.

The lack of sufficient EPA guidance from the beginning of the program created confusion and
disagreements among EPA, the regions, and the States on which projects were eligible for
funding. This is particularly evident regarding water meters. EPA’s March 2, 2009, guidance
defined water meter projects as categorically green, and a number of States submitted projects
that replaced water meters. However, in its June 22, 2009, business case guidance, EPA
provided clarification, stating that a project that proposes to replace existing water meters with
newer water meters is not categorically green. In these situations, a business case is required
documenting any water and/or energy efficiency improvements from such replacement. In the
Drinking Water SRF program, EPA’s guidance did not provide water or energy efficiency
thresholds. To its credit, EPA has established a 20-percent increase in its energy efficiency
threshold for its Clean Water SRF program. Therefore, some States were not sure which projects
were acceptable as “green.” Some regions had approved automated meter reading projects as
categorically green without consideration of energy efficiencies. Other regions considered
energy efficiencies as a factor in approving automated meter reading projects.




                                              4

                                                                                          10-R-0057


Some States have struggled to apply the incomplete and changeable guidance. For example, the
Oklahoma Department of Environmental Quality stated, based on EPA’s March 2009 guidance,
that it had a number of fundable water automated reading system projects for Drinking Water
SRF green reserve funds. However, these projects were rejected by EPA Region 6. Region 6
rejected these projects using EPA’s June business case guidance and direction from EPA
Headquarters, and concluded that the projects did not have sufficient energy efficiencies and the
automated meter readers would result in jobs being lost. In July, after receiving additional
guidance from EPA Headquarters, Region 6 partially reversed its decision not to fund
Oklahoma's automated meter reading projects. EPA approved funding a portion of the project:
the instrumentation necessary to gather and transmit the meter readings to a central location
rather than the entirety of the projects. Oklahoma officials characterized EPA’s decision to
change as an instance of “learning as we go.”

EPA could better support States in the development of business cases. For example, EPA could
develop a standard set of criteria for “business cases” to provide consistency and transparency
for documenting why a project is eligible. This standard format will also guide the States in
determining sufficient documentation required, which will enable a more efficient EPA review
process. West Virginia developed such criteria, and this proved beneficial to that State’s public
water systems and engineering consultants.

EPA Cannot Effectively Conduct Oversight without Definitive Criteria

EPA regional oversight of State solicitation activities and determination of eligibility has varied.
Some regions proactively ensured their States solicited for green projects; others just relied on
EPA Headquarters’ guidance. Some regions developed checklists to identify green projects but
others did not. One region developed internal controls for business cases while others waited for
additional EPA Headquarters information. As mentioned previously, regions varied in how they
assessed the eligibility of certain types of projects such as automated meter readers.

Due to the non-definitive guidance from EPA, States have proposed several projects for which
eligibility is more uncertain than it should have been. The six States subject to our detailed
review identified 37 non-categorical Clean Water and Drinking Water projects that were
supported with “business cases.” However, at the September 2009, only 10 of the 37 projects
had been approved by EPA. A representative of the New Hampshire Department of
Environmental Services told us that he is unsure whether New Hampshire’s documentation of
the energy efficiency of one of its business cases is adequate; EPA’s uncertain guidance has kept
the question open.

Clear and definitive guidance is management’s control and would assist in providing
accountability and transparency to the green reserve program. Despite the States’ efforts,
without definitive green reserve guidance or criteria, EPA is not in a position to consistently
determine whether these projects meet the objectives for which Congress appropriated these
funds. EPA regions and States cannot determine the extent to which these projects reduce
energy and water usage compared to projects traditionally funded under the SRF program. In
addition, EPA cannot determine whether changes are needed in the program to better achieve




                                               5

                                                                                          10-R-0057 



green reserve objectives. Consequently, EPA cannot provide assurance the program is meeting
its intended goals.

Recommendations

We recommend that the Assistant Administrator for Water:

   1. 	 Develop and revise guidance, information, and, as appropriate, specific criteria that States
        can employ to assist them in identifying projects qualifying for funding from the State’s
        green project reserve.

   2. 	 Conduct a timely review of the States’ submitted green projects and, where necessary,
        accompanying business cases, in accordance with the pertinent statutory provisions and
        EPA guidance, information, and criteria.

Agency Response and OIG Comments
EPA officials neither agreed nor disagreed with OIG’s initial recommendation to “develop
threshold ranges for green projects” as they apply to drinking water systems. However, EPA
officials said that States need additional flexibility in pursuing water and energy efficiency goals
for drinking water systems. Drinking Water SRF officials argued that , “…although many larger
systems may be able to achieve 20% efficiency improvements for energy projects, for a smaller
system (where DWSRF funds are often targeted), smaller percentage savings could still be
considered ‘significant’ for that system, especially if it is a well targeted and much needed
efficiency project.” OIG officials met with Agency officials and discussed their concerns. The
Agency officials suggested changes to the recommendations that would meet their concerns
while addressing the concerns OIG had raised in the draft report. The OIG carefully reviewed
these suggestions and amended the recommendations to those contained above.

A complete copy of the Agency response is in Appendix A. All recommendations will remain
undecided while the Agency and the OIG continue with resolution efforts.




                                               6

                                                                                                                                       10-R-0057




                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed To
    No.      No.                          Subject                           Status1      Action Official           Date      Amount      Amount

     1        6     Develop and revise guidance, information, and,            U       Assistant Administrator
                    as appropriate, specific criteria that States can                        for Water
                    employ to assist them in identifying projects
                    qualifying for funding from the State’s green project
                    reserve.

     2        6     Conduct a timely review of the States’ submitted          U       Assistant Administrator
                    green projects and, where necessary,                                     for Water
                    accompanying business cases, in accordance with
                    the pertinent statutory provisions and EPA
                    guidance, information, and criteria.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                7

                                                                                           10-R-0057




                                                                                       Appendix A

                                 Agency Response
                                        December 28, 2009


MEMORANDUM

SUBJECT:               Draft Evaluation Report: EPA Needs Definitive Guidance for Recovery
                       Act and Future Green Reserve Projects - Project No. 2009-901

FROM:                  Peter S. Silva
                       Assistant Administrator

TO:                    Dan Engelberg
                       Director, Water and Enforcement Issues
                       Office of Inspector General


        Thank you for your letter of November 13, 2009, providing the draft evaluation report
“EPA Needs Definitive Guidance for Recovery Act and Future Green Reserve Projects.” In
general, the report provides helpful insight into the type and extent of guidance needed for the
Green Project Reserve (GPR). As we move forward with the GPR requirement in the 2010
Appropriation, EPA will take the Office of Inspector General’s recommendations into
consideration. The attached document includes our responses to specific recommendations. We
have already begun the process of developing guidance. The first step was to conduct listening
sessions with States and Regions, as well as with non-profit organizations and groups associated
with each of the four targeted project types. We will also draw on the draft Clean Water SRF
(CWSRF) white paper “Tapping the Untapped Potential of the CWSRF”, which explored
existing authority to fund many of the types of projects targeted by the GPR, as well as numerous
fact sheets and policy memos that helped the SRF programs get a quick handle on what projects
should be included in the GPR for ARRA. We will also be using the lessons learned during
ARRA to expand the list of sample green projects and better articulate what makes a good
business case for projects that do not appear on the list, so that the guidance is clearer in the 2010
GPR guidance.

        These improvements will build upon significant efforts undertaken by the Office of
Water to support ARRA implementation and the GPR in particular. For example, EPA issued
guidance within two weeks of the American Recovery and Reinvestment Act (ARRA) being
signed into law. The portion of the guidance addressing the new GPR requirement not only
explicitly defined each of the four types of projects targeted by GPR, it also contained lists of
eligible projects to help states easily identify qualified projects. EPA also provided states with




                                                8

                                                                                          10-R-0057


the flexibility to identify other projects by justifying their decision through a business case. The
initial guidance was followed by a number of additional efforts focused specifically on GPR
issues. First, the State Revolving Fund (SRF) programs hosted several webcasts regarding the
GPR on March 12, May 14, and May 21, 2009. Second, Drinking Water Protection Division
Director Steve Heare emailed a Drinking Water SRF (DWSRF) memorandum to all the Regional
SRF Coordinators on May 20, 2009. This memo explains the components that should be
included in a business case and provides details regarding the type of documentation that should
be referenced in or submitted with the business case. Third, EPA developed a document
providing example business cases for drinking water projects. This document was released in
draft form to regions and states on August 12, 2009 and was published and posted on EPA’s
recovery website in September
(http://www.epa.gov/water/eparecovery/docs/2009_09_25_DWSRF_GPR_Business_Case_Exa
mples.pdf).

       Again, we appreciate you sharing your draft report for our review and comment, and look
forward to our continuing collaboration in the future. If you have any questions, please contact
me or Cynthia Dougherty, Director of the Office of Ground Water and Drinking Water, at
(202) 564-3750.

Attachment




                                               9

                                                                                         10-R-0057 



                  Office of Water Responses to Recommendations in 

                 Office of Inspector General Draft Evaluation Report 

 “EPA Needs Definitive Guidance for Recovery Act and Future Green Reserve Projects.”


Recommendation #1 – Develop threshold ranges for green projects, such as water and energy
efficiency, and develop specific criteria necessary for business cases.

Response: The CWSRF established a numeric threshold for energy efficiency improvements at
POTWs to help states easily identify categorically green projects and determine which projects
needed a business case to justify them as eligible for GPR. It was determined early on by
DWSRF staff that numeric thresholds (i.e. 20% energy savings) were not as appropriate for
drinking water systems as for wastewater systems. The DWSRF took the position that, although
many larger systems may be able to achieve 20% efficiency improvements for energy projects,
for a smaller system (where DWSRF funds are often targeted), smaller percentage savings could
still be considered ‘significant’ for that system, especially if it is a well targeted and much
needed efficiency project. Similarly, it is also difficult to quantify what water savings should be
considered ‘green’. A drinking water system could have a huge volume of water savings (in
gallons), but it might only be a small percentage of the total flow. Conversely, a project could
result in significant percentage of water savings; however, it may only be a small volume of
water. These points were relayed at the meeting with the OIG on August 11, 2009, to discuss the
findings of the audit. At that meeting, DWSRF staff suggested that the recommendation be
softened to say that EPA could offer acceptable ‘parameters’ for water and energy efficiency
projects.

Recommendation #2 – Conduct a timely review of the States’ submitted green projects and,
where necessary, accompanying business cases in accordance with the EPA-defined criteria.

Response: In addition to evaluating the green projects proposed by states and any necessary
business cases, EPA Regions will be following up with state visits twice a year. During these
visits, Regions will review a sample of project files to ensure the projects proceed as proposed
and result in the environmental benefits anticipated by Congress when the Green Project Reserve
was established. Also, Headquarters DWSRF conducted regional reviews that included state
discussions and Headquarters CWSRF visited 49 states. During these reviews, Headquarters
provided feedback to the regions and states on the implementation of ARRA, including GPR.




                                              10 

                                                                              10-R-0057 





                                                                            Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator, Office of Water
General Counsel
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Water
Acting Inspector General




                                           11 

